     DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

December 13, 2011

Report Number: A-05-11-00030

Ms. Anne Moffat
Executive Director, Office of Sponsored Programs
The Ohio State University
1960 Kenny Road
Columbus, OH 43210

Dear Ms. Moffat:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Administrative and Clerical Costs at The Ohio
State University for the Period July 1, 2008, Through June 30, 2010. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mike Barton Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. Please refer to report number A-05-11-00030 in all correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Anne Moffat


Direct Reply to HHS Action Official:

Lorraine M. Trexler, Director
Division of Risk Management & Audit Liaison
OAMP, OALM
National Institutes of Health
6011 Executive Blvd. Room 549-C
Rockville, Maryland 20892-7663
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF ADMINISTRATIVE AND
CLERICAL COSTS AT THE OHIO STATE
UNIVERSITY FOR THE PERIOD JULY 1,
  2008, THROUGH JUNE 30, 2010




                        Daniel R. Levinson
                         Inspector General

                          December 2011
                          A-05-11-00030
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices

    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

The Ohio State University (the University) is a public institution located in Columbus, Ohio.
During the period July 2008 through June 2010, the University claimed reimbursement for
$296,670,144 on 1,036 grants with components of the Department of Health and Human
Services (HHS).

In accepting grants awarded by HHS and other Federal agencies, the University agreed to
comply with regulations governing the use of Federal funds and ensure that costs charged to
those grants were allowable under the cost principles established in 2 CFR pt. 220 (formerly
Office of Management and Budget (OMB) Circular A-21), Cost Principles for Educational
Institutions (the Cost Principles). These cost principles require that, to be allowable, costs must
be reasonable, be allocable, conform to any exclusions or limitations set forth in the cost
principles or sponsored agreements, and be given consistent treatment through the application of
generally accepted accounting principles.

With respect to administrative and clerical costs, the Cost Principles state that colleges and
universities should generally treat these expenses as facilities and administrative (F&A) costs
and thus recover the applicable portion of those expenses through F&A rates negotiated with the
Federal government. However, the criteria also recognize that direct charging of these expenses
may be appropriate in “unlike circumstances” or for certain “major projects.”

“Unlike circumstances” are where a type of cost that is consistently charged as an F&A cost,
could potentially be charged to as a direct cost, because the circumstances depart from the norm.
Circumstance outside the norm may mean a major project with unique requirements or a cost
that can be specifically associated with a grant with a high degree of accuracy.

“Major projects” are defined in the Cost Principles as projects that require an “extensive amount
of administrative or clerical support, which is significantly greater than the routine level of such
services provided by academic departments.”

OBJECTIVE

Our objective was to determine whether the University treated administrative and clerical
salaries, as well as other costs normally charged as indirect costs, on a consistent basis as either
direct or indirect charges, except when incurred in “unlike circumstances” or for a “major
project” in accordance with the Cost Principles.

SUMMARY OF FINDINGS

The University generally treated administrative and clerical salaries, as well as other costs
normally charged as indirect costs, on a consistent basis as either direct or indirect charges,
except when incurred in “unlike circumstances” or for a “major project” in accordance with the
Cost Principles.

                                                  i
Based on our two statistical samples, consisting of 100 charges for administrative and clerical
salaries and 259 charges for administrative costs other than salaries, we determined that the
University did not adequately document or support 11 charges with a total value of $2,100. The
University generally had established adequate controls and ensured consistent compliance with
the Federal requirements applicable to charges for administrative and clerical costs. The
University’s Office of Sponsored Programs generally provided adequate scrutiny for charges
proposed by colleges, departments, and principal investigators to ensure that those charges fully
complied with Federal regulations.

RECOMMENDATIONS

We recommend that the University:

   •   credit applicable grants for costs not adequately documented, totaling $2,100; and

   •   strengthen its procedures to ensure administrative and clerical costs are correctly treated
       as either direct or indirect charges.

UNIVERSITY COMMENTS

In written comments on our draft report, the University concurred with our recommendations.
The University’s comments are included in their entirety in the Appendix to the report.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION...........................................................................................................1

          BACKGROUND .................................................................................................. 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ................................................1
               Objective ...................................................................................................1
               Scope .........................................................................................................1
               Methodology .............................................................................................2

FINDINGS AND RECOMMENDATION.................................................................... 3

          DETERMINING ALLOWABILITY ...................................................................3

          SALARY COSTS .................................................................................................5

          ADMINISTRATIVE COSTS OTHER THAN SALARIES ................................5

          UNIVERSITY ESTABLISHED ADEQUATE CONTROLS .............................. 5

          RECOMMENDATION ........................................................................................ 6

          UNIVERSITY COMMENTS ...............................................................................6

APPENDIX

          UNIVERSITY COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

The Ohio State University (the University) is a public institution located in Columbus, Ohio.
During the period July 2008 through June 2010, the University claimed reimbursement for
$296,670,144 on 1,036 grants with components of the Department of Health and Human
Services (HHS).

In accepting grants awarded by HHS and other Federal agencies, the University agreed to
comply with regulations governing the use of Federal funds and ensure that costs charged to
those grants were allowable under the cost principles established in 2 CFR pt. 220 (formerly
Office of Management and Budget (OMB) Circular A-21), Cost Principles for Educational
Institutions (the Cost Principles). These cost principles require that, to be allowable, costs must
be reasonable, be allocable, conform to any exclusions or limitations set forth in the cost
principles or sponsored agreements, and be given consistent treatment through the application of
generally accepted accounting principles.

With respect to administrative and clerical costs, the Cost Principles state that colleges and
universities should generally treat these expenses as facilities and administrative (F&A) costs
and thus recover the applicable portion of those expenses through F&A rates negotiated with the
Federal government. However, the criteria also recognize that direct charging of these expenses
may be appropriate in “unlike circumstances” or for certain “major projects.”

“Unlike circumstances” occur when a type of cost that is consistently charged as an F&A cost,
could potentially be charged as a direct cost, because the circumstances depart from the norm.
Circumstance outside the norm may mean a major project with unique requirements or a cost
that can be specifically associated with a grant with a high degree of accuracy.

“Major projects” are defined in the Cost Principles as projects that require an “extensive amount
of administrative or clerical support, which is significantly greater than the routine level of such
services provided by academic departments.”

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the University treated administrative and clerical
salaries, as well as other costs normally charged as indirect costs, on a consistent basis as either
direct or indirect charges, except when incurred in “unlike circumstances” or for a “major
project” in accordance with the Cost Principles.

Scope

Our audit covered costs claimed for reimbursement for the period from July 1, 2008, through
June 30, 2010. The audit was limited to grants between the University and organizational



                                                  1
components of HHS, including the National Institutes of Health (NIH), the Centers for Disease
Control and Prevention (CDC), the Substance Abuse and Mental Health Services Administration
(SAMHSA), and the Health Resources and Services Administration (HRSA). We did not
evaluate charges to the University’s agreements with other Federal departments or agencies. We
also did not evaluate F series (Individual Fellowship) or T series (Research Training) awards
during this audit.

We limited our assessment of internal controls to policies and procedures related to the
University’s identification of and accounting for administrative and clerical expenses.

We performed our fieldwork at the University’s Office of Sponsored Programs in Columbus, Ohio.

Methodology

To accomplish our audit objective, we:

    •    held discussions with University officials in the Office of Sponsored Programs and the
         Department of Internal Audit;

    •    reviewed the University’s policies and procedures related to the identification of and
         accounting for administrative and clerical expenses;

    •    reviewed the University’s Cost Accounting Standards Board Disclosure Statement
         (DS-2); 1

    •    identified codes assigned to administrative and clerical expenses in the University’s chart
         of accounts;

    •    extracted transactions from the accounting records involving administrative and clerical
         expenses charged to HHS-funded grants;

    •    selected and tested statistical samples of 100 administrative and clerical salary
         expenditures and 259 administrative costs other than salary expenditures charged directly
         to HHS-funded grants to determine whether the charges were allowable in accordance
         with the Cost Principles; and

    •    stratified the 259 administrative costs into 5 distinct strata,
             o cost categories identified by the University as indirect costs,
             o gift cards and honorariums,
             o scientific and educational supplies,
             o other supplies and equipment, and
             o claimed costs of more than $100,000.


1
 Educational institutions that receive aggregate sponsored agreements totaling $25 million or more are required to
disclose their cost accounting practices by filing a disclosure statement (the DS-2). The University has submitted a
DS-2 to the HHS Division of Cost Allocation.


                                                          2
We initially evaluated the sample expenditures based on documentation held on hand and outside
by various departments in project files. Following our initial evaluation, we then asked the
University’s Office of Sponsored Programs and the involved principal investigators to submit
additional information to support that direct charges to the grants, contracts, or other agreements
were appropriate.

We reviewed the findings and determinations of prior and ongoing reviews related to the review
of indirect costs at universities. We also contacted auditors who had worked on this type of
review to obtain a better understanding of how to approach various cost categories.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

The University generally treated administrative and clerical salaries, as well as other costs
normally charged as indirect costs, on a consistent basis as either direct or indirect charges,
except when incurred in “unlike circumstances” or for a “major project” in accordance with the
Cost Principles.

Based on our two statistical samples, consisting of 100 charges for administrative and clerical
salaries and 259 charges for administrative costs other than salaries, we determined that the
University did not adequately document or support 11 charges with a total value of $2,100. The
University generally had established adequate controls and ensured consistent compliance with
the Federal requirements applicable to charges for administrative and clerical costs. The
University’s Office of Sponsored Programs generally provided adequate scrutiny for charges
proposed by colleges, departments, and principal investigators to ensure that those charges fully
complied with Federal regulations.

DETERMINING ALLOWABILITY

Section C.2 from 2 CFR pt. 220, Appendix A establishes four criteria governing the allowability
of costs charged to Federal grants. To be allowable, costs must be reasonable, be allocable,
conform to any exclusions or limitations set forth in the cost principles or sponsored agreements,
and be given consistent treatment through the application of generally accepted accounting
principles.

With respect to administrative and clerical costs, the Cost Principles state that colleges and
universities should generally treat these expenses as facilities and administrative (F&A) costs
and thus recover the applicable portion of those expenses through F&A rates negotiated with the
Federal government. However, the criteria also recognize that direct charging of these expenses
may be appropriate in “unlike circumstances” or for certain “major projects.”




                                                3
Unlike circumstances are described in Exhibit C of the Cost Principles. “Major projects” are
defined as projects that require an “extensive amount of administrative or clerical support, which
is significantly greater than the routine level of such services provided by academic
departments.”

Limitations are set forth in section F.6.b of the Cost Principles. This section adds specific
guidance regarding the treatment of charges for administrative and clerical expenses (the subject
of this audit) incurred within various departments of a college or university, including the
following: “The salaries of administrative and clerical staff should normally be treated as F&A
[Facilities and Administrative] costs” (section F.6.b.2) and “Items such as office supplies,
postage, local telephone costs, and memberships shall normally be treated as F&A costs”
(section F.6.b.3).

Exhibit C to 2 CFR pt. 220, Appendix A provides examples of projects for which direct charges
for administrative and clerical expenses may be appropriate (unlike circumstances), as quoted
here:

   •   Large, complex programs such as General Clinical Research Centers, Primate Centers,
       Program Projects, environmental research centers, engineering research centers, and other
       grants and contracts that entail assembling and managing teams of investigators from a
       number of institutions.

   •   Projects which involve extensive data accumulation, analysis and entry, surveying,
       tabulation, cataloging, searching literature; and reporting (such as epidemiological
       studies, clinical trials, and retrospective clinical records studies).

   •   Projects that require making travel and meeting arrangements for large numbers of
       participants, such as conferences and seminars.

   •   Projects whose principal focus is the preparation and production of manuals and large
       reports, books and monographs (excluding routine progress and technical reports).

   •   Projects that are geographically inaccessible to normal departmental administrative
       services, such as research vessels, radio astronomy projects, and other research field sites
       that are remote from the campus.

   •   Individual projects requiring project-specific database management; individualized
       graphics or manuscript preparation; human or animal protocols; and multiple project-
       related investigator coordination and communications.

As stated in the Exhibit, “[t]hese examples are not exhaustive nor are they intended to imply that
direct charging of administrative or clerical salaries would always be appropriate for the
situations illustrated in the examples.”




                                                4
SALARY COSTS

Of the 100 charges in our sample of administrative and clerical salaries, we accepted all 100
charges with a total value of $21,514. The University generally provided sufficient
documentation and support to show that the involved grants qualified as major projects or were
able to support unlike circumstances, where the administrative and clerical support being
charged directly was beyond the level of support normally required by an academic department.

ADMINISTRATIVE COSTS OTHER THAN SALARIES

Of the 259 charges in our sample of administrative costs other than salaries, we accepted 248
charges with a total value of $2,026,668. In these instances, the University provided sufficient
documentation and support to show that direct charging of the involved costs was justified by the
nature and extent of the involved work or other circumstances.

For example, we concluded that direct charging for the costs of copying services was justified on
an NIH project entailing the production of recruitment, education, data collection, and consent
material for a long-term treatment study involving 60 type-2 diabetics. Similarly, we concluded
that postage and express delivery charges were warranted on a number of projects that required
mass mailings to program participants or shipments of biological samples.

However, the University did not adequately document or support the other 11 charges in our
sample, with a total value of $2,100. The University adjusted 9 charges during the period of our
fieldwork and indicated they would adjust the remaining 2 charges.

UNIVERSITY ESTABLISHED ADEQUATE CONTROLS

The University generally had established adequate controls and ensured consistent compliance
with the Federal requirements applicable to charges for administrative and clerical costs
contained in 2 CFR pt. 220, Appendix A. Its “Sponsored Program Costing Policy” (SPCP)
incorporated text from 2 CFR pt. 220, Appendix A, and its individual colleges, departments, and
principal investigators generally interpreted the SPCP correctly and generally complied with the
Federal requirements.

As discussed earlier, Federal regulations specify that administrative and clerical costs will
generally be treated as F&A, with the only specific exception provided for “major projects”
defined in section F.6.b.2 of 2 CFR pt. 220, Appendix A as projects requiring an “extensive
amount of administrative or clerical support, which is significantly greater than the routine level
of such services provided by academic departments.” University policies specifically do not
mention the term “major project”, but do recognize “unlike circumstance” as including “major
project” requirements and incorporate relevant wording from the regulations.

The Office of Sponsored Programs generally provided adequate scrutiny for charges proposed by
colleges, departments, and principal investigators to ensure that those charges fully complied
with Federal regulations.




                                                 5
RECOMMENDATION

We recommend that the University:

   •   credit applicable grants for costs not adequately documented, totaling $2,100; and

   •   strengthen its procedures to ensure administrative and clerical costs are correctly treated
       as either direct or indirect charges.

UNIVERSITY COMMENTS

In written comments on our draft report, the University concurred with our recommendations.
The University’s comments are included in their entirety in the Appendix to the report.




                                                6
APPENDIX
                                Page 1 of 2
APPENDIX: UNIVERSITY COMMENTS
Page 2 of 2
